Office of Inspector General


July 12, 2012

MEMORANDUM

TO:                  USAID/Regional Development Mission for Asia’s Mission Director, Michael Yates

FROM:                Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Review of USAID/Regional Development Mission for Asia’s Coral Triangle
                     Support Partnership (Report No. 5-493-12-001-S)

This memorandum transmits our final report on the subject review. In finalizing the report, we
considered your comments on the draft version and have included them in their entirety in
Appendix II of this report.

This report contains 14 recommendations to assist the mission in improving the efficiency and
effectiveness of its program. On the basis of information provided by the mission in its response
to the draft report, we determined that final action has been taken on 10 recommendations—1,
2, 4, 5, 7, 9, 10, 11, 12, and 13—while management decisions have been reached on the
remaining four—3, 6, 8, and 14. Please provide the Audit Performance and Compliance
Division of USAID’s Office of the Chief Financial Officer with evidence of final action to close the
open recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
review.




U.S. Agency for International Development
PNB Financial Center, 8th Floor
Roxas Blvd. 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
SUMMARY OF RESULTS
Considered by some scientists the global epicenter of marine biodiversity, the Coral Triangle
region spans six countries between the Western Pacific and Indian Oceans. These countries
include Indonesia, Malaysia, Papua New Guinea, Philippines, Solomon Islands, and Timor-
Leste. In December 2007, these six countries formed the Coral Triangle Initiative for Coral
Reefs, Fisheries and Food Security (CTI-CFF, or CTI for short).

In response to the CTI, the U.S. Government initiated the CTI Support Program (USCTI),1 which
consists of three agreements:

1. The Coral Triangle Support Partnership, a cooperative agreement between USAID and the
   World Wildlife Fund (WWF), Conservation International, and the Nature Conservancy.

2. A Program Integrator contract awarded by USAID to Tetra Tech ARD Inc. to coordinate
   technical assistance from various U.S. Government agencies and partners.

3. An agreement through the National Oceanic and Atmospheric Administration to provide
   information and technical assistance.

This performance review focused on the Coral Triangle Support Partnership. USAID’s Regional
Development Mission for Asia (RDMA) awarded the partnership, a 5-year, $32 million leader
with associates cooperative agreement, on September 30, 2008. WWF is the prime
implementer, and it provided subawards to Conservation International and the Nature
Conservancy, forming a regional consortium. As of December 2011, cumulative obligations and
disbursements under the program totaled $23.5 million and $15.8 million, respectively.

The partnership’s goal is to improve the management of biologically and economically important
coastal and marine resources and associated ecosystems that support the livelihoods of people
and economies in the Coral Triangle. To achieve this goal, the partnership has four major
objectives:

1. Strengthen regional and national platforms to catalyze and sustain integrated marine and
   coastal management.

2. Improve the approach to fisheries management throughout the region.

3. Improve the management of marine protected areas in Coral Triangle countries.

4. Improve Coral Triangle countries’ ability to adapt to climate change.

The objective of this performance review was to determine whether the Coral Triangle Support
Partnership was achieving its main goal. The review team determined that while the partnership
has had some successes, it has made limited progress in improving the management of
biologically and economically important coastal and marine resources. This is largely because
the performance management plan was inadequate as was the quality of the data on the
partnership’s accomplishments.

1
    The U.S. Department of State also provided an initial grant.


                                                                                            1
The USCTI (and the partnership by extension) has made significant headway in developing the
national and regional platforms meant to catalyze and sustain integrated marine and coastal
management among the six governments in the Coral Triangle. The Interim Regional
Secretariat—a coordinating body for CTI efforts—was formed and is awaiting final ratification
from the six governments. CTI national coordinating committees have also been established in
each of the governments, along with national and regional technical working groups addressing
priorities including fisheries, marine protected areas, and adapting to climate change.




  This map of the Coral Triangle shows the partnership’s activity sites. (http://www.usctsp.org)

Despite these achievements, the review team found several problems that the mission needs to
address:

   The partnership did not tailor indicators to its activities. Instead it used standard indicators
   that did not measure progress toward the four main objectives (page 4).

   Reported results were not reliable. Some achievements were misleading, and there were
   deficiencies in collecting, maintaining, and storing data (page 5).

   Partners did not integrate the development of alternative livelihoods or public-private
   partnerships into activities (page 9).

   Beneficiaries were unaware of USAID’s contributions (page 11).

The report recommends that USAID/RDMA:




                                                                                                   2
1. Develop performance indicators that measure activity-based outputs and related results for
   each of the partnership’s four objectives (page 5).

2. Assess the tangible achievements in each of the partnership’s four objectives (page 5).

3. Share the results assessment with key stakeholders in the six governments to help gain
   their support (page 5).

4. Establish improved policies and procedures to verify that reported accomplishments are
   adequately supported (page 7).

5. Clarify indicator measurements and definitions (page 7).

6. Establish procedures so that data quality assessments evaluate an implementing partner’s
   data collection, maintenance, and processing procedures and test the accuracy and
   consistency of the data (page 8).

7. Work with the partnership’s prime implementer to expand the data collected for reported
   accomplishments. This could be done through a standard template that tracks the specific
   location of activities, the number of participants by type, the results each event contributes
   to, etc. This information should be stored in a way to allow adequate analysis of cumulative
   results (page 8).

8. Work with the partnership’s prime implementer to implement procedures to include only
   intended beneficiaries in formal reporting to USAID. Other training participants, such as
   consortium members and students, should be tracked separately (page 8).

9. Issue guidelines on how to integrate alternative livelihood development into activities that
   involve managing marine protected areas, fisheries, and adaptation to climate change.
   These guidelines would be available as a part of the Coral Triangle Initiative tool kit for
   future efforts in the region (page 10).

10. Incorporate the discussion of developing alternative livelihoods into future workshops hosted
    by the partnership (page 10).

11. Clarify in writing the roles and responsibilities of who is in charge of developing the
    partnership’s public-private partnerships (page 10).

12. Issue written guidance to the partnership’s prime implementer on informing beneficiaries of
    USAID’s sponsorship of the partnership (page 11).

13. Implement a plan for monitoring the implementation of the prime implementer’s branding
    strategy and marking plan (page 11).

14. Use local languages for branding in activity sites to ensure greater recognition from
    community members (page 11).

Detailed findings follow. The review scope and methodology are described in Appendix I. Our
evaluation of management comments will be included on page 12, and the full text of
management comments will appear in Appendix II.



                                                                                               3
REVIEW FINDINGS
Partnership Did Not Tailor
Indicators to Its Activities
A performance indicator forms the basis for observing progress and measuring actual results
compared with expected results.         The performance management plan must include
performance indicators for all development objectives.2

The entities that contribute to the USCTI developed six performance indicators to measure their
combined efforts in the initiative’s consolidated results framework. Because each of the entities
has different programmatic objectives, the indicators were very generic and not meant to
measure the specific accomplishments of any program’s objectives in particular.

During our review, we found that the Coral Triangle Support Partnership did not establish
performance indicators to measure progress relating to the accomplishment of its four
objectives. Instead, it tracked progress using the USCTI’s six indicators, which do not correlate
directly to the partnership’s objectives.

For example, Indicator 4 tracks the number of people who received training in natural resources
management or biodiversity conservation. This indicator does nothing to identify to what extent
these ―trained people‖ contribute to the objectives of (1) strengthened national or regional
platforms, (2) an improved fisheries approach, (3) improved management of protected marine
areas, or (4) improved adaptation to climate change. None of the other indicators demonstrates
how the training affected the behaviors or beliefs of participants.

Similarly, the number of laws, policies, agreements, or regulations proposed, adopted, or
implemented that address climate change (Indicator 5) do not indicate whether there has been
any progress on improving the region’s capacity to adapt to climate change. There is also no
recognition of how the partnership has strengthened institutional capacity and collaboration
under results for strengthening regional and national platforms.

The consortium’s regional program office, which coordinated the efforts and reporting of the
members, did not have a monitoring and evaluation officer for the first 2.5 years of the
partnership’s existence because WWF determined that each consortium member would be
responsible for its own monitoring and reporting while the regional program office consolidated
the results before reporting to USAID. This ―regional‖ monitoring and evaluation officer could
have brought the consortium together to work out a series of performance indicators specific to
the partnership’s objectives.

USAID did not follow up to confirm that the partnership developed program-specific indicators;
instead the Agency ratified the partnership’s usage of the six generic indicators by
acknowledging and approving them in the mission’s data quality assessment—an assessment
that was lacking, as noted in the next finding.



2
 Automated Directives System (ADS) 203.3.4, ―Performance Indicators for Performance Management
Plans and Projects.‖


                                                                                                 4
While appropriate as part of a consolidated framework for USCTI efforts, these six indicators
were not sufficient for measuring the partnership’s accomplishments. Consequently, the data
collected did not provide the information needed to determine the partnership’s progress or to
assess the effectiveness of activities.

Not being able to communicate any progress can impair the partnership’s ability to generate
consistent support and interest from local and national governments in the Coral Triangle. In
fact, some national representatives have expressed frustration at the lack of tangible results.
We therefore make the following recommendations.

      Recommendation 1. We recommend that USAID/Regional Development Mission for
      Asia work with the Coral Triangle Support Partnership’s prime implementer to implement
      performance indicators that measure results of activities related to each of the
      partnership’s four objectives.

      Recommendation 2. We recommend that USAID/Regional Development Mission for
      Asia work with the Coral Triangle Support Partnership’s prime implementer to assess the
      tangible achievements toward each of the partnership’s four objectives and document
      the results.

      Recommendation 3. We recommend that USAID/Regional Development Mission for
      Asia share the documented results of this assessment with key government
      stakeholders in the six governments in the Coral Triangle to help gain their support.

Reported Results Were Not Reliable
To be useful for performance management and credible for reporting, the data in the
partnership’s performance management plan should be valid, trustworthy, and timely. Data
should also be sufficiently precise, with a suitable level of detail, to present a fair picture of
performance and help managers make decisions.3

During our review, however, we found that the performance indicators in the partnership’s
performance management plan and the data on them were not precise enough to present a
reasonable picture of what had been accomplished to date. Available data on the indicators did
not clearly represent the intended result, raising questions about the integrity of the data. We
also found that the partnership’s database was inadequate for tracking and reporting activities.
These problems are discussed in detail below.

Reported Achievements Were Misleading and Unreliable. Throughout our substantive
testing, we noted concerns with the reliability, precision, and integrity of the partnership’s data.
Evidence to support the reported results was unavailable, rendering them unreliable or
misleading.

The review team performed substantive tests on four of the six performance indicators. We
tested the reported results for Indicators 3, 5, and 6 in their entirety because they were not too
numerous. We selected a sample of 3,927 people who participated in 32 reported training
events for Indicator 4, which made up 64 percent of the total number of people trained and
39 percent of the 82 total training events.

3
    ADS 203.3.5.1, ―Data Quality Standards.‖


                                                                                                  5
                                Reported Versus Actual Results
                                                                  Reported       Substantiated
                              Indicator
                                                                   Results         Results*
           Number of hectares of biological significance under               †
       1                                                          9,579,177      Not tested
           improved management
           Number of hectares of natural resources under
       2                                                           5,892,522     Not tested
           improved management
           Number of policies, laws, agreements, or regulations
       3   promoting sustainable natural resource management               46        25
           and conservation that are implemented
           Number of people receiving training in natural
                                                                                 Reported result
       4   resources management and/or biodiversity                     6,129                  ††
                                                                                 is unreliable
           conservation
           Number of policies, laws, agreements, or regulations
       5   addressing climate change proposed, adopted, or                  3         2
           implemented
       6   Number of public-private partnerships formed                     9         2
     * Data substantiated during performance review.
     †
       Although we did not test this indicator substantively, analytical procedures showed that
     roughly 1 million hectares of this amount were part of the proposed Tun Mustapha Park in
     Malaysia. Government authorities have intended to establish the park since 2003, but still have
     not drafted an integrated management plan. The review team determined that only a few
     thousand hectares of the 1 million were linked to specific demonstration sites supported by the
     partnership and ―under improved management.‖ Therefore, the total is closer to 8.5 million
     hectares.
     ††
        We validated training records for 1,357 out of 3,927 people included in our sample. We did
     not test the other 2,202.

As shown in the table above, some of the supporting documentation was insufficient. For
example, only 54 percent of Indicator 3’s reported number of agreements were documented. Of
the rest, 22 percent were only draft versions of agreements that have not yet been adopted, let
alone implemented; another 15 percent had no supporting documentation; and 9 percent were
not laws, policies, agreements, or regulations at all. The number of reported public-private
partnerships under Indicator 6 also lacked adequate supporting evidence.

For Indicator 4, the partnership had no support whatsoever to prove it had trained 1,023 people
(26 percent). In fact, the partnership had adequate proof that it had trained only 1,357 people,
or 35 percent of the 3,927 reported number trained, rendering the reported figure for Indicator 4
unreliable.

The general understanding among the partnership’s consortium and USAID representatives
was that each implementing partner would be responsible for collecting, tracking, and reporting
data for their own activities. Moreover, the primary role for the partnership’s chief of party—as
determined by the partnership’s prime awardee—originally was meant to assist with political
mobilization and facilitate technical discussion, and did not include the authority to provide
programmatic direction to the consortium for the first year. Instead, WWF formed a consortium
strategy committee to provide oversight and management responsibility—duties normally
allotted to the chief of party; this committee was composed of two members from each of the
three implementers. Additionally, because the regional office in Jakarta was not able to hire a
monitoring and evaluation officer until 2.5 years after the program began (because of limitations
set by WWF), nobody was in charge of setting reporting standards or following up with
implementers to be sure they documented their work adequately.


                                                                                                       6
Consequently, each implementer decided how and when to report results. Discrepancies in
various consortium members’ understanding of when and how to report accomplishments
limited the comparability of reported results, which meant that management could not rely on
the results to make decisions. Therefore, we make the following recommendations.

      Recommendation 4. We recommend that USAID/Regional Development Mission for
      Asia work with the Coral Triangle Support Partnership’s prime implementer to implement
      improved policies and procedures to validate reported accomplishments.

      Recommendation 5. We recommend that USAID/Regional Development Mission for
      Asia work with the Coral Triangle Support Partnership’s prime implementer to clarify in
      writing indicator measurements and definitions.

Data Quality Assessment Did Not Disclose Deficiencies in Collecting, Maintaining, and
Processing Data. USAID conducts data quality assessments to provide reasonable assurance
that reported data meet five data quality standards: validity, precision, integrity, reliability, and
timeliness. When data quality assessments include data from secondary sources, like the
partnership’s implementing partners, USAID should test the data for accuracy and consistency
to ascertain its reliability.4

The data quality assessment that USAID/RDMA conducted, however, only superficially
reviewed the performance indicators reported on by the partnership’s consortium. According to
the mission’s assessment, all five data quality standards were reportedly met and no data
limitations were noted, though we found that the indicators did not clearly and directly measure
progress toward meeting the partnership’s four objectives.

Furthermore, the mission concluded that mechanisms were in place to reduce the possibility
that data were manipulated, though we found that 10 of the 46 reported ―number of policies,
laws, agreements, or regulations . . . that are implemented‖ (Indicator 3) were still in the draft
phase. When asked why they are already being counted as being adopted and implemented, a
consortium official told us that if they had to wait for everything to be formally adopted, they
wouldn’t be able to report anything.

In the assessment, USAID/RDMA also concluded that the consortium planned to collect data as
soon as they were available, but would only be reporting to the mission on a semiannual basis.
We learned, however, that the consortium’s regional program office sent out semiannual
requests for data instead of expecting it as soon as the data were available. The partnership’s
former deputy chief of party acknowledged that he was not aware that anyone in the consortium
ever tried to analyze the collective data gathered from the implementing partners.

The data quality assessment did not evaluate the partnership’s data collection, maintenance,
and processing procedures. We did not find any evidence that anyone checked to see if the
data were accurate and consistent. Had someone done this, he or she could have found the
deficiencies we found in the consortium’s database, which are discussed below.

      Reported training events were not tracked individually. Instead, multiple unrelated training
      events were grouped together in a single category in the database, thus preventing anyone
      from tracking the results of individual training activities.

4
    ADS 203.3.5.3, ―Conducting Data Quality Assessments.‖


                                                                                                   7
   Reported data were not tracked by (or clearly attributed to) specific results as required in the
   approved performance management plan. This made it difficult to determine how much
   progress was made toward achieving the four objectives. It was also unclear how some
   training events, like a volleyball tournament, were related to any of the objectives.

   Because training activities could be tracked based only by the country where they occurred,
   we could not determine how much progress was made in any of the 17 geographic priority
   areas in the six countries—let alone the sites in each of these areas.

   In addition to recording multiple trainings as a single event, the reported number of people
   trained during these events and the events’ descriptions were included in the same cell of
   the Excel spreadsheet rather than recorded separately. As a result, we could not run a
   query to determine how many people were trained in a particular country or perform other
   queries through Excel. The combined figures were added manually and reported elsewhere
   in the spreadsheet, often without annotation as to how these figures were calculated. We
   noted several errors in these calculations.

   Participant type was not recorded. Thus, we could not determine from the database who
   actually participated in—and benefitted from—partnership activities. While testing the
   reported number of people trained, we found that 12 of the 32 tested training events
   (38 percent) included consortium members as trainees—averaging 22 percent of the
   training participants who attended these events. We could not make this determination for
   14 (or 44 percent) of the events because of insufficient documentation, while no concerns
   were noted for the 6 remaining training events.

Consolidating training accomplishments in the database inhibits management’s ability to
analyze aggregate data and determine the partnership’s progress toward achieving its intended
results. Additionally, consortium members reporting their own employees as beneficiaries under
training activities inflates results and masks how effective the partnership is in reaching its
intended audience: local community members and government officials. We therefore make the
following recommendations.

   Recommendation 6. We recommend that USAID/Regional Development Mission for
   Asia implement procedures to require data quality assessments to (1) evaluate an
   implementing partner’s data collection, maintenance, and processing procedures and
   (2) determine the accuracy and consistency of the data through substantive testing.

   Recommendation 7. We recommend that USAID/Regional Development Mission for
   Asia work with the Coral Triangle Support Partnership’s prime implementer to expand
   the data collected for reported accomplishments. This could be done through a standard
   template with fields for the specific location of activities, the number of participants by
   type, and what objective could be achieved through each event. This information should
   be used to modify the database so the implementer can keep better track of progress for
   future work.

   Recommendation 8. We recommend that USAID/Regional Development Mission for
   Asia work with the Coral Triangle Support Partnership’s prime implementer to include
   only intended beneficiaries in formal reporting to USAID. Other training participants,
   such as consortium members and students, should be tracked separately.



                                                                                                 8
Some Partnership Priorities
Were Not Addressed
Alternative Livelihoods Were Not Sufficiently Developed. The partnership’s cooperative
agreement notes the importance of addressing human needs in addition to those of the
ecosystem to have a sustainable impact on conservation:

       Success will require attention to both human and ecosystem needs, including
       those of segments of society often overlooked. . . . During the early design
       phase, a specific strategy on gender will be elaborated and lessons learned from
       past experiences with alternative livelihood approaches will be incorporated into
       activity design to maximize the human benefits. Specific local activities with the
       potential for being replicated elsewhere or scaled up to the national or regional
       level will be given priority.

       The Consortium will also address the demand side industries that affect the
       marine environment of the Coral Triangle. Additional examples of activities . . .
       include diversification of livelihoods sufficient to encourage fishers to not only
       supplement their fishing, but to actually leave it. All activities to diversify
       livelihoods or create alternative livelihoods will be directly linked and contingent
       upon actions to decrease the number of fishers and licenses in the fishery, thus
       reducing fishing pressure and threats.

       Each workplan should elaborate, in a clearly understandable and concise
       manner . . . a logical framework that shows the direct links between biodiversity
       threats and any proposed alternative livelihoods that may reduce those threats.

Through our interviews with consortium staff members, we noted that developing alternative
livelihoods was not being seriously considered as part of an integrated approach to manage
fisheries and marine protected areas sustainably, as prioritized in the cooperative agreement.
The partnership’s annual work plans make only generic references to developing alternative
livelihood programs. Partnership officials were unable to explain why this was the case.

While reviewing the consortium’s database, we found that only 3 of the 82 reported training
events included anything that could be related to developing alternative livelihoods. One was a
mat-weaving course taught in Malaysia, which we verified during a site visit. The other two were
ecotourism courses both occurring in Wakatobi, Indonesia; we were unable to determine the
content of these courses.

Several local community members we interviewed over the course of fieldwork expressed a
need for alternative livelihoods to counter the effect of decreased fishing. As the representative
of one local association said, ―It is fine to come and explain a reason for not fish-bombing. But
without providing an alternative option for earning income? Don’t talk to me.‖

By not integrating alternative livelihoods into its activities, the partnership loses a valuable tool
for improving the sustainability of fisheries and the effectiveness of those who manage them.
We therefore make the following recommendations.




                                                                                                   9
   Recommendation 9. We recommend that USAID/Regional Development Mission for
   Asia to require the Coral Triangle Support Partnership to issue written guidelines on how
   to integrate alternative livelihoods into activities involving marine protected areas,
   fisheries, and climate change adaptation. These guidelines would be available as a part
   of the Coral Triangle Initiative tool kit for related efforts in the future.

   Recommendation 10. We recommend that USAID/Regional Development Mission for
   Asia formally require that the Coral Triangle Support Partnership’s prime implementer
   incorporate and document the discussion of developing alternative livelihoods into future
   workshops hosted by the partnership.

Public-Private Partnerships Were Not Formed to the Extent Envisioned. Public-private
partnerships (PPPs) have been identified as strategically important in developing sustainable
fisheries management, as shown from the cooperative agreement references:

       Public-private partnerships are a centerpiece of the . . . proposal. For a region
       with one of the fastest growing rates of economic activity and influence in the
       world, the combining of public and private interests in the future of the Coral
       Triangle and its resources is critical.

       The Consortium will work to bring together alliances of national and local
       governments, NGOs and fishing industry players around specific objectives and
       activities related to specific issues such as . . . sustainable live reef fish trade,
       sustainable coastal fisheries management and maximizing the potential of the
       tourism industry. . . . All three [Consortium members] give significant attention to
       public-private partnerships to galvanize sustainable business practices and new
       revenue streams.

Despite this declaration, consortium staff members interviewed in country offices and at
demonstration sites generally were not aware of any strategy for encouraging PPPs or of a
particular target to work toward. Partnership officials were unable to explain why this was the
case.

In addition, a number of the PPPs the partnership claimed to have forged (for which supporting
documentation was not provided) appear to be arrangements between private organizations.
They would fit more accurately in Indicator 3, which measured the number of implemented
agreements that promoted sustainable natural resources management. This discrepancy
indicates that the consortium’s staff members did not know what a PPP was, thus affecting their
ability to facilitate these important relationships.

As a result, the partnership might have missed an opportunity to encourage sustainable
business practices through combining public and private interests. We therefore make the
following recommendation.

   Recommendation 11. We recommend that USAID/Regional Development Mission for
   Asia work with the Coral Triangle Support Partnership’s prime implementer to clarify and
   document the partnership’s public-private partnership objective and the roles and
   responsibilities of partners in achieving it.




                                                                                               10
Beneficiaries Were Unaware
of USAID’s Contributions
The partnership’s branding strategy and marking plan stipulates that the consortium will work
closely with USAID country missions to find opportunities to publicize the American people’s
support for the Coral Triangle Initiative. According to the plan, the consortium will take
advantage of all situations—including formal and informal meetings—to identify USAID and the
American people as the partnership’s supporters. Additionally, ADS 320.3.1 states that USAID
employees involved in program implementation must confirm that implementing partners
communicate that USAID-funded foreign assistance is from the American people.

However, there was very little awareness, particularly at the community level, of the U.S.
Government’s role in funding and supporting the initiative. In fact, 27 of 34 community members
we interviewed during site visits in three countries were either unaware of USAID entirely or
unaware of what it was and its connection with the partnership; four people had the impression
that USAID was another nongovernmental organization. Two employees of one of the
consortium’s partners were unaware that USAID was funding activities.

USAID personnel involved in implementation did not monitor the consortium’s application of the
branding strategy and marking plan to be sure it consistently and properly identified USAID and
the American people as the partnership’s supporters. The partnership’s midterm evaluation,
completed in October 2010, expressed concern about the generally limited awareness of
USAID-funded support for activities and included recommendations to address this problem.
Nonetheless, the same concern exists 1.5 years later because the consortium’s implementing
partners have not made much effort to communicate the information. Partnership officials were
unable to explain why this problem was recurring.

Furthermore, we found during our site visits that USAID branding in the field was always in
English, which was not commonly used. For example, signs in a community in Nusa Penida,
Indonesia, included the USAID logo and the phrase ―From the American People‖ in English—a
language that local participants do not speak. We were unable to determine why they produced
the signs in English instead of the local languages.

Because of limited, poorly designed publicity about USAID’s involvement, the American people
are not being recognized for their considerable investment in the Coral Triangle. We therefore
make the following recommendations.

   Recommendation 12. We recommend that USAID/Regional Development Mission for
   Asia issue written guidance to the Coral Triangle Support Partnership’s prime
   implementer on how to inform beneficiaries of USAID’s sponsorship of the partnership.

   Recommendation 13. We recommend that USAID/Regional Development Mission for
   Asia implement a plan for monitoring—and documenting the monitoring—the execution
   of the Coral Triangle Support Partnership’s branding strategy and marking plan by the
   partnership’s prime implementer.

   Recommendation 14. We recommend that USAID/Regional Development Mission for
   Asia work with the Coral Triangle Support Partnership’s prime implementer to use local
   languages for branding in activity sites to increase recognition within communities.




                                                                                            11
EVALUATION OF MANAGEMENT
COMMENTS
The Office of Inspector General has reviewed the mission’s response to the draft report and
determined that final action has been taken on 10 of the 14 recommendations—1, 2, 4, 5, 7, 9,
10, 11, 12, and 13—while management decisions have been reached on the remaining 4—3, 6,
8, and 14. Our evaluation of comments on the recommendations is below.

In response to Recommendation 1, the mission had the implementer revise the performance
management plan to include new, custom sub-indicators for each of the existing standard ones.
These sub-indicators provide greater detail on outputs and achievements of the Coral
Triangle Support Partnership. Because the partnership is well into its fourth year of
implementation and detailed data from the past are not likely to be available, we are not
asking the mission to retroactively populate the results of these new sub-indicators.
Instead, the partnership can use the new indicators in the future and also as a model for
other programs. This revised performance management plan was submitted to the mission
on June 29, 2012, and was approved by the mission on July 8, 2012. We conclude that final
action has been taken on this recommendation.

In response to Recommendation 2, the mission conducted an in-depth assessment of the
partnership’s tangible, outcome-related achievements within each of the four major objectives.
This assessment determined the partnership’s overall progress relating to its four major
objectives and documented this progress in a draft results achievement brief. A list of 31
USAID-supported tools and other guidelines was also developed for distribution. We conclude
that final action has been taken on this recommendation.

In response to Recommendation 3, the mission plans to communicate the partnership’s
progress with the six governments in the Coral Triangle using the drafted results achievement
brief. This will be done during the presentation of the partnership’s Year 5 work plans to the CTI
National Coordination Committees. We conclude that a management decision has been
reached. Final action will be taken when the official communication takes place, which is
expected to take place by September 30, 2012.

In response to Recommendation 4, the partnership’s regional and country team members
participated in a source document simulation using a revised template. Feedback from this
simulation resulted in updated data management policies and procedures as formalized in the
partnership’s revised performance management plan. The mission approved these on July 8,
2012. The implementer also hired a new monitoring and evaluation officer on July 1, 2012.
This officer plans to visit field teams to monitor and conduct onsite training on source
documentation and reporting. We conclude that final action has been taken on this
recommendation.

In response to Recommendation 5, the mission and the implementer conducted a review of the
partnership’s current performance management plan and indicator definitions. This review led
to the development of custom sub-indicators as well as revised definitions of the already
existing standard indicators. The mission approved them on July 8, 2012.



                                                                                               12
Furthermore, the mission has proactively announced that all environmental programs under
USAID/RDMA’s purview will be undergoing a data quality assessment to clarify understandings
of indicator results measurement and definitions. This process will culminate in a 2-day
workshop with all implementing partners to (1) present preliminary findings of the data quality
assessment, (2) address common issues, and (3) clarify partners’ understanding of indicator
reference sheets and definitions. We conclude that final action has been taken on this
recommendation.

In response to Recommendation 6, the mission’s monitoring and evaluation working group has
a missionwide plan to (1) conduct formal training on performance management plans, data
quality assessments, and quarterly monitoring for agreement officer/contract officer
representatives, (2) establish a process to conduct regular data quality assessments, and
(3) institute a process for formal quarterly reporting by technical offices. The mission is drafting
an order that outlines specific requirements for monitoring. This will be finalized once the
Policy, Planning and Learning Bureau issues monitoring guidelines, which are due out shortly.
The mission is also hiring a monitoring and evaluation specialist to provide increased guidance
and support for activity monitoring for all the mission’s programs, including planning for and
advising on data quality assessments. We conclude that a management decision has been
reached. Final action will be taken when the order is formally issued, which is expected by
December 31, 2012. This order should include the requirement for a data quality assessment to
include testing of data when received from secondary sources, like program implementers.

In response to Recommendation 7, the implementer established templates for reporting and
capturing detailed information about the location of activities, participant types, and coverage in
terms of the partnership’s four major objectives. The mission approved these templates on July
8, 2012. The implementer has also hired a monitoring and evaluation officer to conduct onsite
training on the proper application of the templates. We conclude that final action has been
taken on this recommendation.

In response to Recommendation 8, the mission and the implementer updated the performance
management plan to include specific guidance for proper reporting and standard templates to
accurately record intended beneficiaries. This updated plan was approved on July 8, 2012.
The partnership’s new monitoring and evaluation officer will conduct onsite training on the
revised performance management plan to help employees comply with its policies and
procedures. We conclude that a management decision has been reached. Final action will be
taken when the implementer issues its formal report to USAID demonstrating only intended
beneficiaries are included. This report is expected by October 31, 2012.

In response to Recommendation 9, the mission formally asked the implementer to create
guidelines for alternative livelihood development to be incorporated into an integrated approach
with marine protected areas, fisheries management, and climate change adaptation. Further,
an ecosystem-based management guidebook, developed on June 5, 2012, incorporates
strategic steps and associated activities to diversify livelihoods of coastal communities. We
conclude that final action has been taken on this recommendation.

In response to Recommendation 10, the mission formally asked the implementer to incorporate
the discussion of alternative livelihood development into future regional exchanges. During the
regional exchange on fisheries management in Putrajaya, Malaysia, between May 22 and 25,
2012, the development of alternative livelihoods was integrated into the presentation. We
conclude that final action has been taken on this recommendation.



                                                                                                 13
In response to Recommendation 11, the mission asked the implementer to review the current
public-private partnership objective, identify any partnerships not accounted for, and identify
specific partnership implementers responsible for developing sustainable public-private
partnerships. In response to this request, the implementer identified key staff responsible for
managing, reporting, and documenting public-private partnership activities. The implementer
also defined public-private partnerships more clearly and provided examples to show how they
could support the partnership’s objectives. We conclude that final action has been taken on this
recommendation.

In response to Recommendation 12, the mission sent a memorandum to the implementer
emphasizing the need to inform beneficiaries of USAID’s sponsorship of the partnership. In
response, the implementer redesigned the partnership’s Web site to feature USAID branding
and program successes. Updated brochures and other print materials were also released
recently for distribution. We conclude that final action has been taken on this recommendation.

In response to Recommendation 13, the mission issued a written notice to the implementer
requiring it to provide the mission with periodic updates on program materials that demonstrate
compliance with branding and marking regulations. The agreement officer’s representative will
also conduct site visits to verify reported branding materials. We conclude that final action has
been taken on this recommendation.

In response to Recommendation 14, the mission provided implementer staff members with the
Web link so they could get access to the translated USAID logo for Malaysia, the Philippines,
Timor Leste, and Papua New Guinea. The USAID Web site link, however, does not include
local language translation for the Solomon Islands. USAID’s Regional Development Mission for
Asia and the USAID/Pacific Office, in collaboration with the partnership, will develop and
translate the USAID logo into this local language. The English version will be used until the
translation is done. The mission will monitor usage of the translated USAID logo in future
partnership communication materials. We conclude that a management decision has been
reached. Final action will be taken when the USAID logo is adopted in the local languages for
the Solomon Islands. This is expected to be completed by September 30, 2012.




                                                                                              14
                                                                                           Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance review in accordance with the evidence and documentation
standards in Government Auditing Standards, Paragraphs 7.55 and 7.77 through 7.84. Those
standards require that we obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions in accordance with our review objectives. We believe that the
evidence obtained provides that reasonable basis.

The purpose of this performance review was to determine whether the USAID/RDMA’s Coral
Triangle Support Partnership was achieving its main goal of improving the management of
biologically and economically important coastal and marine resources in the region. To
implement the program, USAID awarded a $32 million leader with associates cooperative
agreement to WWF as leader (prime awardee) with Conservation International and the Nature
Conservancy as subawardees. The agreement lasts from September 30, 2008, until September
30, 2013. As of December 2011, cumulative obligations and disbursements under the program
totaled $23.5 million and $15.8 million, respectively.

The performance review covered the partnership’s activities from September 30, 2008, through
April 20, 2012. The most recent formally reported data covered the 3-year period that ended on
September 30, 2011. We conducted visits to selected areas to interview training participants
and recipients of technical assistance. We also observed activity sites.

In planning and performing this performance review, we assessed management controls related
to management review and performance targets and indicators:

     Program work plans for fiscal years 2009, 2010, 2011, and 2012
     Certification required under the Federal Managers’ Financial Integrity Act of 19825
     Portfolio review sheets
     Data quality assessment
     Cooperative agreement and modifications
     Reported results
     Financial reports

Because the Coral Triangle Support Partnership is a regional effort, we performed our fieldwork
in Thailand, Indonesia, Malaysia, and the Philippines from March 12 to April 20, 2012. We
observed activities and interviewed participants as well as members of the consortium’s staff.
During these site visits, we spoke with 30 government officials, 34 community members, and
45 consortium staff members.

Methodology
To determine whether the program was achieving its main goals, we initially interviewed key
staff at Tetra Tech ARD’s office in Bangkok to gain an understanding of their role in coordinating
with the partnership as the Program Integrator. We also met with the main officials at

5
    Public Law 97–255, as codified in 31 U.S.C. 3512.


                                                                                                  15
USAID/RDMA to discuss their roles and responsibilities and the reporting procedures and
controls for monitoring the partnership. In addition, we interviewed key staff at the consortium’s
regional program office in Jakarta, Indonesia. We also interviewed consortium employees in
Jakarta and Bali, Indonesia; Kota Kinabalu and Kudat, Malaysia; and Puerto Princessa,
Philippines. Additional work to answer the review objective entailed conducting site visits to
selected countries in the Coral Triangle to interview participants and observe activities. We also
reviewed and analyzed documents to validate data reported under selected performance
indicators.

The performance review included interviews with training recipients as well as with other
stakeholders engaged with the partnership on some level, like government officials who
received technical assistance. We also made an effort to validate reported results for selected
performance indicators through testing and analytical procedures.

To determine the reliability of computer-processed data related to the partnership’s activities
contained in the consortium’s information management system, we selected 100 percent of the
reported results relating to Indicators 3, 5, and 6. For Indicator 4, 32 of 82 reported training
events were tested. Indicators 1 and 2 were not tested because they were measurements
theoretically supported by the other four indicators. The partnership’s reported results proved
unreliable because of insufficient documentation and misleading data.

We established a materiality threshold of 85 percent to assess the test results. For example, if
at least 85 percent of tested results data reported under a specific performance indicator were
adequately supported, we concluded that the reported results were reasonably accurate.




                                                                                               16
                                                                                 Appendix II



MANAGEMENT COMMENTS




TO:            William Murphy, RIG/Manila               DATE:        July 5, 2012

FROM:          Michael Yates, RDMA Mission Director /s/

SUBJECT:       Management Comments and Actions to Recommendations in the
               Regional Inspector General (RIG) Draft Report on the Performance
               Review of the Coral Triangle Support Partnership (Report No. 5-493-12-
               00X-S)


USAID’s Regional Development Mission for Asia (RDMA) appreciates the professionalism and
thoroughness of the audit team from the Regional Inspector General (RIG)/Manila in the
conduct of the Coral Triangle Support Partnership (CTSP) Performance Review. The
Performance Review findings were clear and allowed RDMA to pursue effective management
responses in a timely manner. RDMA agrees with all 14 recommendations in the June 4th Draft
Report of the CTSP Performance Review. Based on input received during the RIG exit
conference on April 20, 2012, RDMA took swift action on a number of CTSP program
management issues, all of which are captured in this document and reflect our commitment to
improving performance management and monitoring.

On April 30, 2012, RDMA shared the RIG’s Discussion Draft with the World Wildlife Fund
(WWF), the CTSP prime implementing partner, and issued performance management
recommendations in the document titled ―USAID/RDMA Management Actions Responding to
Recommendations of the Performance Review of CTSP‖ (hereafter referred to as RDMA
Management Actions) on April 30, 2012. On May 18th, RDMA held a day-long meeting with key
staff from WWF to discuss and refine the recommendations in the RDMA Management Action
document which was updated May 29, 2012 to include CTSP Action Steps (see Attachment 2).

Recommendation 1. We recommend that USAID/Regional Development Mission for Asia
work with the Coral Triangle Support Partnership’s prime implementer to develop
performance indicators that measure activity-based outputs and related outcome-related
results for each of the Partnership’s four result areas (page 6).

RDMA Management Action: RDMA Management agrees with this recommendation.




                                                                                         17
On April 30, 2012, RDMA communicated with CTSP staff, via email, regarding the RIG
Performance Review. Along with an email cover letter, a copy of the RIG Draft Discussion
Document and the RDMA Management Action document were also conveyed. The RDMA
Management Action memo establishes and documents all corrective actions, including that
CTSP develop custom performance indicators in response to RIG findings.

CTSP reported on May 18th regarding the status of the ongoing review of their current
Performance Monitoring Plan (PMP) led by an independent monitoring and evaluation (M&E)
consultant, contracted by WWF, who started work on May 21, 2012. The draft ―Report on the
Review and Customization of the PMP Indicators‖ as of June 10, 2012 has identified and
proposed custom indicators that measure CTSP’s activity-based outputs for Indicators 3, 4, 5,
and 6. The review results are further embodied in the CTSP Revised PMP and M&E Manual
submitted to RDMA on June 29, 2012, which will be included in the upcoming Regional
Environment Office (REO) Data Quality Assessment (DQA) process. The DQA will culminate
with a two-day workshop with REO implementing partners to present preliminary findings of the
DQA, address common issues, and provide clarification on interpretation of indicator reference
sheets and definitions. A CTSP M&E Specialist started work on July 1, 2012 to focus on
mentoring/training at CTSP field sites to improve source documentation and data quality.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 2. We recommend that USAID/Regional Development Mission for Asia
work with the Coral Triangle Support Partnership’s prime implementer to assess the
tangible, outcome-related achievements within each the Partnership’s four result areas
(page 6).

RDMA Management Action: The RDMA Management agrees with this recommendation.

On June 7, 2012, CTSP completed Country and Regional Brochures that introduce CTSP’s
program priorities and success stories under each of four result areas. The same sets of
materials are available in print and electronically in the newly revised CTSP website
(http://www.usctsp.org/demo/). A more in-depth assessment on CTSP’s ―tangible, outcome-
related achievements within each of the four result areas‖ took place on Day 1 of the CTSP
Year 5 Work Planning Meeting on June 13, 2012. On Day 1, CTSP’s country field team and
regional thematic team leads for Marine Protected Areas (MPAs), Ecosystem Approach to
Fisheries Management (EAFM), and Climate Change Adaptation (CCA) reported on progress
against the four result areas of the USCTI Endgame Strategy. Cumulative program progress
has been further consolidated into a USCTI Results Achievement Brief, which is discussed in
the next recommendation. A USCTI Tools/Products Inventory datasheet was rolled out on June
21, 2012 and now includes a total of 31 USAID supported ―tangible‖ tools/products developed
with CTSP, NOAA, and the Program Integrator (PI) technical assistance. The datasheet also
lays out a plan for a systematic and collaborative ―roll out, distribution and handover‖ process
with appropriate CTI-CFF partners and stakeholders. This action is incorporated in the Year 5
Work Plan priorities.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.




                                                                                              18
Recommendation 3. We recommend that USAID/Regional Development Mission for Asia
share the results of this assessment with key government stakeholders within the six
governments in the Coral Triangle region to help develop political buy-in (page 6).

RDMA Management Action: The RDMA Management agrees with this recommendation.

The USCTI Results Achievements Brief summarizes the results achieved by the CTSP, NOAA
and the Program Integrator (PI) and is presented in a format easily comprehensible to CTI
government stakeholders from site, national and regional levels. The Achievements Brief,
submitted to RDMA on June 29, 2012, is a 2-page document (i.e. regional and by country)
detailing USCTI progress against the four results areas and will be officially communicated by
RDMA to the CTI-CFF government partners, in particular, the CTI National Coordinating
Committees (NCCs), CTI-CFF Secretariat, and Local Government officials. The Results
Achievements Brief will also be published and posted in the USCTI, CTSP, and CTI-CFF
websites. Over the next year we expect at least 12 NCC meetings to take place, and RDMA
staff will attend at least one in each country in order to present the Achievements Brief in
person. RDMA staff will also personally convey the Achievements Brief to key government
stakeholders at Senior Officials Meetings and CTI Ministerial Meetings. As has been the
practice since 2009, CTSP country teams have already started a series of consultations with
their government counterparts to ―socialize‖ CTSP’s Year 5 Work Plan priorities and to define
respective roles and responsibilities of government partners in program implementation. These
regular meetings provide a good opportunity to take specific action on communicating program
achievements to help garner and sustain country level buy-in. CTSP also issued a memo on
June 28, 2012 to its field staff on guidance to share CTSP results in-country with each NCC as
a first step in the consultation process of the Year 5 Work Plan.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 4. We recommend that USAID/Regional Development Mission for Asia
work with the Coral Triangle Support Partnership’s prime implementer to establish
improved policies and procedures to ensure reported accomplishments are adequately
supported (page 8).

RDMA Management Action: The RDMA Management agrees with this recommendation.

On May 18, 2012, WWF submitted to RDMA a memorandum that outlines the CTSP process for
data gathering and management and also provides guidance on proposed modifications and
improvements to its data gathering and management procedures. On June 14, 2012, at Day 2
of the CTSP Year 5 Work Planning Meeting, the CTSP regional and country team members
participated in a Source Documentation simulated exercise where they were asked to fill out
source documentation forms and attendance data sheets. Comments and feedback from CTSP
teams were gathered to further refine the templates for source documentation and data
reporting. CTSP’s PMP Data Management Policies and Procedures are described in more detail
in the CTSP Revised PMP and M&E Manual submitted on June 29, 2012. The new CTSP M&E
Specialist, who started work on July 1, 2012, will visit CTSP field teams to monitor and conduct
on-site mentoring/training on source documentation and reporting on the revised PMP.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.



                                                                                             19
Recommendation 5. We recommend that USAID/Regional Development Mission for Asia
work with the Coral Triangle Support Partnership’s prime implementer to clarify
understandings of indicator result measurements and definitions (page 8).

RDMA Management Action: The RDMA Management agrees with this recommendation.

To arrive at a common understanding of indicator results measurements and definitions,
RDMA/REO announced on May 11, 2012 at the REO Partners Meeting its plan to conduct an
REO-wide Data Quality Assessment (DQA) involving all REO programs with the goal of
clarifying understandings of REO indicator results measurements and definitions. Copies of the
REO Performance Management System plans were distributed to implementing partners at the
meeting. A DQA process led by an external consultant will assess REO’s data management and
reporting systems and verify reported data for key indicators at selected sites in order to
determine whether indicator data meets the following data quality standards set forth in USAID’s
Automated Directive Systems Chapter 203 on ―Assessing and Learning.‖ The process will
culminate with a two-day workshop with REO implementing partners to present preliminary
findings of the DQA, address common issues, and provide clarification on implementing
partners’ understanding of indicator reference sheets and definitions.

CTSP has taken parallel action steps at the project level to clarify CTSP indicator definitions and
measurements. CSTP conducted a review of the current Performance Management Plan (PMP)
and indicator definitions led by an independent M&E consultant who started work on May 21,
2012. The review resulted in the development of custom indicators, the first draft of which was
vetted and validated with the CTSP regional and country teams on Day 2, June 14, 2012 at the
CTSP Year 5 Work Planning Meeting where comments were discussed and consensus reached
on the indicators presented at the meeting. The CTSP Revised PMP and M&E Manual
submitted on June 29, 2012 incorporates comments and suggestions received from RDMA and
the CTSP regional and country teams at the CTSP Work Planning Meeting. CTSP’s revised
PMP will then be subjected to a further DQA review by RDMA under REO’s Performance
Management System’s development process.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 6. We recommend that USAID/Regional Development Mission for Asia
establish procedures to ensure that data quality assessments (1) evaluate an
implementing partner’s data collection, maintenance, and processing procedures and (2)
determine the accuracy and consistency of the data through substantive testing (page
10).

RDMA Management Action: The RDMA Management agrees with this recommendation.

RDMA’s Monitoring and Evaluation Working Group (MEWG) has a Mission-wide plan that
includes a) conducting formal training on PMPs, DQAs, and Quarterly Monitoring for
AOR/CORs; b) establishing a process to conduct regular DQAs more frequently than every
three years; and c) instituting a process for formal quarterly reporting by technical offices.
RDMA is drafting a Monitoring Mission Order (MO) that outlines specific Mission requirements
for monitoring, in addition to RDMA’s currently implemented Evaluation Mission Order. The
Monitoring MO will be finalized once the Policy, Planning and Learning Bureau issues Agency
monitoring guidelines, due out shortly. RDMA is also hiring an M&E Specialist, to be on board



                                                                                                20
in 2012, who will provide increased guidance and support for activity monitoring for all RDMA
programs, including planning for, and advising on, high quality DQAs.

Additionally, in response to the RIG Performance Review, RDMA/REO announced on May 11,
2012 at the REO Partners Meeting its plan to establish an improved REO Performance
Management System. A presentation was made at that time regarding the issue of data quality
and plans for an REO wide DQA. REO has since then instituted several corrective actions to
address data quality, not only in CTSP, but for all REO programs:

1) On June 25, 2012, REO AORs/CORs received copies of the DQA Scope of Work and were
   requested to submit copies of PMPs and Quarterly/Semiannual Reports for the DQA
   planning process;
2) REO, through USAID/Washington’s E3 service provider Development & Training Services
   Inc. (dTS), will conduct an assessment of REO’s data management and reporting systems
   and verify reported data for key indicators at selected sites in order to determine whether
   indicator data meet quality standards on validity, integrity, precision, reliability, and
   timeliness as set forth in USAID’s Automated Directive Systems Chapter 203 on ―Assessing
   and Learning‖. The Scope of Work for the REO DQA Process was submitted on June 25,
   2012. Verification and testing of reported data will be conducted in August 2012 in sample
   geographic locations that will include CTSP sites. The DQA process will culminate on
   September 6th & 7th with a two-day workshop to present preliminary findings of the DQA and
   to clarify and obtain common understanding of all indicator data reference sheets; and
3) RDMA advertised, on June 29, 2012, the full-time position for a Strategic Information
   Specialist (SIS) (see Attachment 12 for SIS Position Description) to support REO’s improved
   Performance Management System and represent REO to the RDMA Monitoring and
   Evaluation Working Group in order to improve overall mission monitoring systems.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 7. We recommend that USAID/Regional Development Mission for Asia
work with the Coral Triangle Support Partnership’s prime implementer to expand the
level of detail collected for reported accomplishments. This could be done through a
standard template that tracks the specific location of activities, the number of
participants by type, the result area each event contributes to, etc. This information
should be stored in a way to allow adequate analysis of cumulative results (page 10).

RDMA Management Action: The RDMA Management agrees with this recommendation.

CTSP/WWF in their May 18, 2012 memorandum to RDMA proposed modifications on CTSP’s
data gathering and management and draft templates (see Annexes A, B and C of the Memo in
Attachment 8). The review, which ran parallel to this process, culminated with the development
of the CTSP Revised PMP and M&E Manual submitted to RDMA on June 29, 2012. The
Revised PMP and M&E Manual has a section which includes the standard templates for
reporting and capturing detailed information on location, participant types and result areas
coverage. The source documentation templates will contain the following data to be collected
and reported by CTSP field teams: 1) specific location, 2) type of participants for trainings; 3)
coverage in terms of four CTSP results areas; 4) gender disaggregation and others. WWF is
looking at the ―possibility of creating a web-based data input and verification system‖. The new
CTSP M&E Specialist, who started work on July 1, 2012, will visit CTSP field teams to monitor



                                                                                                21
and conduct on-site mentoring and training on the proper application of the revised PMP
standard templates and spreadsheets.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 8. We recommend that USAID/Regional Development Mission for Asia
work with the Coral Triangle Support Partnership’s prime implementer to implement
procedures that ensure only intended beneficiaries are included in formal reporting to
USAID. Other training participants, such as Consortium members and students, should
be tracked separately (page 10).

RDMA Management Action: The RDMA Management agrees with this recommendation.

The CTSP/WWF May 18, 2012 memorandum to RDMA provided draft changes to the CTSP
data collection procedures and policies. The revised CTSP PMP and M&E Manual submitted on
June 29, 2012, provides specific guidance to CTSP teams in proper reporting and use of
standard templates and source documentation and specifically deals with this issue of reporting
on intended beneficiaries. These revised procedures will ensure only intended beneficiaries are
included in formal reporting to USAID. The new CTSP M&E Specialist who started work on July
1, 2012 will visit CTSP field teams to monitor and conduct on-site mentoring/training on the
Revised PMP and compliance with its Policies and Procedures.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 9. We recommend that USAID/Regional Development Mission for Asia
clarify expectations for the Coral Triangle Support Partnership to create guidelines for
alternative livelihood development to be incorporated into an integrated approach for
marine protected areas, fisheries, and climate change adaptation management. This
guideline would be available as a part of the CTI toolkit for future related Coral Triangle
efforts (page 11).

RDMA Management Action: The RDMA Management agrees with this recommendation.

The April 30, 2012 RDMA Management Action document includes an RDMA request for CTSP
to develop a guideline for alternative livelihoods to be incorporated into an integrated approach
with CTSP’s MPA, EAFM, and CCA results areas. CTSP, during the May 18th meeting in RDMA
(and as shown in May 29th update of the RDMA Management Action), reported on their ongoing
process to consolidate and modify guidelines for alternative livelihoods, to be incorporated into
the USCTI Integrated Toolkit. This toolkit was presented on Day 2, June 14, 2012, of the CTSP
Year 5 Work Planning Meeting. CTSP conducted a team review and test-run of the June 5,
2012 version of the toolkit entitled ―Integrating Ecosystem-based Management Approaches in
the Coral Triangle: Practical Guidelines for Marine and Coastal Managers and Conservation
Practitioners.‖ This Integrated Toolkit or CTI-CFF Ecosystem-Based Management (EBM)
guidebook, developed with CTSP technical assistance, seeks to integrate and synergize
resource management approaches to multiple threats and issues, traditionally dealt with in
isolation of one another that undermine the integrity of coastal-marine resources in the Coral
Triangle. The guidebook focuses on mutually supportive objectives on sustainable fisheries,
biodiversity conservation (including threatened species) and adaptation to the impacts of climate



                                                                                              22
change. For CTI-CFF, sustaining fisheries will sustain livelihoods of millions of people in CT
region who depend upon seafood for their subsistence.

Table 2 on page11 of the toolkit, summarizes the coastal-marine resources strategies which
cover livelihoods. This table, which the CTSP team tested on June 14, 2012, provides a tool for
resource managers to document activities that contribute to multiple objectives. Labeled,
―diversify livelihoods of coastal communties,‖ it includes the following activities: a) vulnerability
of current livelihoods to climate change assessed; b) adaptation measures to reduce livelihood
vulnerability implemented; and c) environment-friendly alternative income generation
opportunities provided to communities. All three activities on livelihoods relate to the three
integrated objectives on sustaining fisheries, climate change and biodiversity conservation.

This EBM guidebook or Integration Toolkit provides the overarching guidelines for sustainable
livelihoods in the CTI. CTSP will roll out and initiate a handover process of the Integrator Toolkit.
It will be available electronically to CTI and coastal-marine managers by August 2012.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 10. We recommend that USAID/Regional Development Mission for Asia
formally request that the Coral Triangle Support Partnership’s prime implementer
incorporate the discussion of socio-economic conditions, such as alternative livelihood
development, into future workshops hosted by the Partnership (page 11).

RDMA Management Action: The RDMA Management agrees with this recommendation.

During the 2nd Regional Exchange for Ecosystems Approach to Fisheries Management (EAFM),
held in Malaysia on May 22-25, 2012, CTSP incorporated a dedicated session on integrating
―Livelihoods and EAFM‖ in the CTI. Dr. Robert Pomeroy, CTSP EAFM Team Leader, presented
four dimensions to consider in coastal livelihoods, namely, diversity, adaptation, incentives and
vulnerability. He then stressed that sustainable livelihoods is an important component to EAFM.
The guidelines for applying sustainable livelihoods to EAFM are shown on pages xiii and 8 of
the EAFM Workshop Proceedings and as stated below:

a) Highlight actual livelihood conditions and needs. Fisheries managers may have
   preconceptions of what fishers need, and find out that fishers are actually concerned with
   totally different issues;
b) Identify factors affecting livelihood and the drivers that make people do what they do;
c) Identify how to improve and maintain sustainability of resource, income and household
   needs;
d) Highlight how livelihoods link to ecosystem health;
e) Clarify potential impacts of fisheries management changes on livelihoods and social
   resilience.

The CTI EAFM Technical Working Group represented by Coral Triangle member countries
reached a general consensus that livelihood issues should be addressed under the EAFM
regional policy and legislative framework. CTSP will follow this approach in incorporating the
discussion of socio-economic conditions, such as alternative livelihood development into future
CTI-CFF workshops/regional exchanges on Climate Change Adaptation, Marine Protected
Areas, and EAFM.



                                                                                                   23
The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 11. We recommend that USAID/Regional Development Mission for
Asia work with the Coral Triangle Support Partnership’s prime implementer to clarify the
expectations of working toward the Partnership’s Public-Private Partnership objective.
The roles and responsibilities of who should be making this effort should also be made
clear (page 12).

RDMA Management Action: The RDMA Management agrees with this recommendation.

The April 30, 2012 RDMA Management Action requested CTSP/WWF to review the current
CTSP Public-Private Partnerships (PPP) target, identify any PPPs not accounted for or
reported, determine whether the PPP target should be revised, and identify CTSP consortium
members responsible for developing PPP targets for Year 5. CTSP’s initial action step was to
review the current CTSP PMP indicators and PPPs for accuracy. CTSP has submitted a report
detailing a review of its indicators including Indicator 6 on PPPs which can be found on page 17
of the report dated June 10, 2012. The June 29, 2012 CTSP Revised PMP and M&E Manual
also includes new tentative targets on PPPs to be finalized upon submission of the Year 4
Annual Report and Year 5 Work Plan. The CTSP team also reviewed the PPP indicator at the
June 14, 2012 PMP session during the CTSP Year 5 Work Planning Meeting where general
agreement was reached on definitions of PPP and other indicators. The CTSP Chief of Party
issued a reminder on June 26, 2012 to all field teams on PPP definitions and procedures to
update Year 5 PPP targets before submission of the Year 5 Work Plan. CTSP/WWF also sent a
status update to RDMA on June 28, 2012 for designating CTSP staff charged with the
responsibility of developing and reporting on PPP targets in their respective sites. The CTSP
RPO and Chief of Party are the overall coordinators on CTSP PPP initiatives.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 12. We recommend that USAID/Regional Development Mission for
Asia issue a written guidance to the Coral Triangle Support Partnership’s prime
implementer of the need to inform beneficiaries of USAID’s sponsorship of the
Partnership (page 13).

RDMA Management Action: The RDMA Management agrees with this recommendation.

RDMA sent a memo to CTSP/WWF on June 26, 2012 emphasizing the need to inform
beneficiaries of USAID’s sponsorship of CTSP. The CTSP Year 5 Work Plan will include a
Communications and Branding Section that highlights USAID’s sponsorship of the CTSP
program that CTSP partners will implement. RDMA also issued the same branding guidelines
verbally at the CTSP Year 5 Work Plan Meeting on June 15, 2012 where the CTSP team
discussed key messaging. The CTSP regional and country teams participated in the Key
Messaging training exercise facilitated by an independent and professional public relations firm.
These key messages will, among other messages, reinforce that USAID is the program sponsor
and that USAID funding is from the American people. On June 28, 2012, CTSP issued a
memorandum to all field teams providing guidance on finalizing the Year 5 Workplan,
highlighting CTSP successes and reinforcing USAID’s sponsorship of CTSP. CTSP responded
to RDMA on June 27 and 29, 2012 providing copies of the updated CTSP Branding and
Marking Plan and the position description of the Communications Specialist.


                                                                                              24
The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 13. We recommend that USAID/Regional Development Mission for
Asia develop and implement a plan for monitoring—and documenting the monitoring--
the implementation of the Coral Triangle Support Partnership’s branding strategy and
marking plan by the Partnership’s prime implementer (page 13).

RDMA Management Action: The RDMA Management agrees with this recommendation.

In a memo sent by RDMA to CTSP/WWF dated June 25, 2012, the CTSP AOR from RDMA
issued a Tracking Sheet for CTSP Branding and Marking Plan Implementation. CTSP will
update the Tracking Sheet with supporting documents to the AOR on a regular basis. CTSP is
adopting a methodology to compile communications materials for USAID’s records. The AOR
will conduct site visits to verify reported branding materials. The CTSP Communications
Specialist is responsible for ensuring that the branding and marking plan and corresponding
guidelines are complied with, implemented/documented properly, and reported on regularly. In
addition to the CTSP Communications Specialist based in Jakarta, CTSP is currently in the
process of recruiting a consultant to advise on improving on communications, outreach, and
branding and marking in Solomon Islands and Papua New Guinea (PNG).

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.

Recommendation 14. We recommend that USAID/Regional Development Mission for
Asia work with the Coral Triangle Support Partnership’s prime implementer to utilize
USAID’s local language branding options when identifying specific activity sites to
ensure greater recognition from locally involved community members (page 13).

RDMA Management Action: The RDMA Management agrees with this recommendation.

In two related messages, dated May 9 and June 25, 2012, RDMA provided CTSP staff with the
web link to access the translated USAID Logo for CTI countries namely, Philippines, Malaysia
and Timor Leste. The USAID website link, however, does not include Papua New Guinea (PNG)
and the Solomon Islands. RDMA and the USAID/Pacific Office, in collaboration with CTSP, will
develop and translate the USAID Logo in PNG and the Solomon Islands into Pidgin and in the
meantime use the English version until the translated USAID Logo is available. RDMA will
monitor usage of the translated USAID Logo in future CTSP communications materials. CTSP is
currently recruiting a consultant based either in PNG or the Solomons to advise on improving
communications, outreach, and branding and marking in the CTI Pacific countries.

The RDMA Management believes that final action has been taken and requests that this
recommendation be closed upon issuance of the final report.




                                                                                           25
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
